     DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                   Office of Inspector General


                                                                                Washington, D.C. 20201




                                                NOV 172010



TO: 	             Donald M. Berwick, M.D.
                  Administrator
                  Centers for Medicare & Medicaid Services

                                 /S/
FROM:             Stuart Wright
                  Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Part D Pharmacy Discounts for 2008,
           OEI-02-10-00120


This memorandum report provides information about how sponsors negotiate discounts with
pharmacies, how these discounts differ among brand-name and generic drugs, and whether
sponsors are passing these discounts on to beneficiaries and the Government. Prior to this
review, little information was available about pharmacy discounts. This information is critical
for the Part D program because these discounts directly affect the amount that beneficiaries and
the Government pay for Part D drugs.

We found that for all six sponsors we reviewed, pharmacy benefit managers (PBM) negotiated
lower drug prices with pharmacies in exchange for the pharmacies being in the sponsors'
networks. We also found that the pharmacy discounts for brand-name drugs were based on
average wholesale prices, whereas the discounts for generic drugs were based on prices
established by PBMs. Finally, we found that for five ofthe six sponsors, pharmacy discounts
were not always passed on to beneficiaries and the Government. These results provide valuable
information about how PBMs negotiate with pharmacies for lower Part D drug prices and about
the pricing methods sponsors use to pay for these drugs. These results further highlight the
importance of sponsors ensuring that they are receiving the pharmacy discounts they negotiated
and that they are passing these discounts on to beneficiaries and the Government.




OEI-02-10-00120         Medicare Part D Pharmacy Discounts for 2008
Page 2 – Donald M. Berwick, M.D.



BACKGROUND

The Medicare Prescription Drug Benefit
The Medicare prescription drug program, known as Medicare Part D, provides an optional drug
benefit to Medicare beneficiaries. 1 The Centers for Medicare & Medicaid Services (CMS)
contracts with private insurance companies, known as Part D sponsors, to provide the drug
benefit to beneficiaries who choose to enroll in the program.

Under Medicare Part D, sponsors may offer stand-alone prescription drug plans or they may
offer prescription drug coverage as part of a managed care plan. At a minimum, Part D sponsors
are required to offer a basic prescription drug benefit that is either the standard prescription drug
benefit or is “actuarially equivalent” to the standard benefit. 2 Most beneficiaries are responsible
for certain costs, which may include a monthly premium, an annual deductible, and coinsurance
or copayments. However, low-income beneficiaries are eligible to receive assistance to pay
some or all of these costs. 3

Pharmacy Discounts
CMS requires that Part D sponsors develop a network of pharmacies to dispense drugs to
beneficiaries enrolled in their plans. 4 Sponsors generally contract with third-party entities,
known as PBMs, to develop their pharmacy networks. 5 CMS requires these pharmacy networks
to be geographically diverse and to include different types of pharmacies, such as retail
pharmacies and long-term care pharmacies. 6

Sponsors also contract with PBMs to negotiate discounts with pharmacies. These pharmacy
discounts affect the prices that beneficiaries and the Government pay for Part D drugs. In
addition to negotiating lower drug prices with network pharmacies, PBMs also negotiate
dispensing fees, which are payments provided to pharmacies for each drug dispensed.

It is important to note that pharmacy discounts are distinct from drug manufacturer rebates.
Discounts negotiated with pharmacies are typically reflected in the price that the beneficiary
pays at the pharmacy, whereas rebates are typically lump-sum payments made by drug
manufacturers to sponsors. Drug manufacturers provide rebates to sponsors when they
encourage beneficiaries to use certain drugs.


1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. 108-173.
2 42 U.S.C. § 1395w-102, 42 CFR §§ 423.104(d) and (e). “Actuarially equivalent” means that the plan’s benefits must be of a
dollar value equivalent to that of the standard benefit.
3 42 CFR §§ 423.780 and 423.782.
4 42 U.S.C. § 1395w-104(b)(1), 42 CFR § 423.120(a).
5 PBMs can provide a number of services to sponsors, including processing prescription drug claims, contracting with
pharmacies, and managing formularies. Sponsors may also perform these services themselves.
6 Long-term care pharmacies provide specialized services, such as a comprehensive inventory of drugs commonly used in
long-term care settings, specialized packaging, 7-day-a-week delivery, and emergency medications.




OEI-02-10-00120              Medicare Part D Pharmacy Discounts for 2008
Page 3 – Donald M. Berwick, M.D.


Payment to Pharmacies for Part D drugs
PBMs pay the pharmacies for drugs on behalf of the sponsors, and the sponsors later reimburse
the PBMs for those drugs. The amount that the sponsor pays the PBM varies depending upon
the pricing approach. Sponsors may contract with the PBM using what is known as “lock-in
pricing” or “pass-through pricing.”

When lock-in pricing is used, the sponsor pays the PBM a set amount for its drugs. The PBM
then negotiates with pharmacies for the best possible price, which may vary from the price the
sponsor agrees to pay the PBM. If the PBM negotiates a lower price for a drug, then the PBM
keeps the difference between the price the sponsor agreed to pay and the amount that the PBM
actually pays the pharmacy. Conversely, when pass-through pricing is used, the sponsor
reimburses the PBM the same amount that the PBM pays the pharmacy. The pass-through price
is often lower than the lock-in price. 7

METHODOLOGY

This memorandum report describes pharmacy discounts in the 2008 plan year. It is based on a
review of contracts from six selected sponsors and their PBMs and structured interviews with
officials from these six selected sponsors and their PBMs.

We selected a purposive sample of six Part D sponsors based on the number of beneficiaries
enrolled in their plans and the PBMs they contracted with to get a variety of sponsors and PBMs
for our review. 8 Each of the six sponsors contracted with at least one PBM. These six sponsors
represented more than 25 percent of all Part D beneficiaries in 2008. These are the same six
sponsors that we reviewed in a forthcoming report entitled Concerns With Rebates in the
Medicare Part D Program. 9

Review of Contracts
For each of these 6 sponsors, we selected a purposive sample of 10 contracts that the PBM had
with network pharmacies. To select these contracts, we first requested a list from each sponsor
of all of the contracts it or its PBM had with pharmacies in 2008. From these lists, we selected
10 contracts from each sponsor. We selected a mix of contracts that covered retail and long-term
care pharmacies as well as chain and independent pharmacies. In total, we received and
reviewed 60 contracts. We reviewed these contracts for information about the nature and extent
of pharmacy discounts and any associated dispensing fees.




7 The lock-in price includes a “risk premium” which the sponsor pays to the PBM to mitigate market risk and shield the
Part D sponsor from price variability between pharmacies. 74 Fed. Reg. 1494, 1505 (Jan. 12, 2009). Beginning
January 1, 2010, CMS required Part D sponsors to use the price received by the pharmacy to calculate beneficiary cost
sharing and total drug costs. 74 Fed. Reg. 1506, 1544 (Jan. 12, 2009).
8 These six sponsors were selected from a universe of 258 Part D sponsors.
9 Office of Inspector General, Concerns With Rebates in the Medicare Part    D Program, OEI-02-08-00500, forthcoming.




OEI-02-10-00120             Medicare Part D Pharmacy Discounts for 2008
Page 4 – Donald M. Berwick, M.D.


We also requested and reviewed all of the contracts that the six selected sponsors had with PBMs
in 2008. 10 We reviewed these contracts to determine the nature of the contractual relationships
between the sponsors and their PBMs and how discounts were passed on to beneficiaries and the
Government.

Structured Interviews
We conducted structured in-person or telephone interviews with officials from each of the six
selected sponsors. We interviewed these officials to gain a better understanding of their
pharmacy networks and discounts and their contractual relationships with PBMs. We requested
that representatives from the PBM also be included in the interviews. In some cases, the
representatives from the PBMs requested that we speak to them without the sponsors present
because of the confidential nature of the information.

Our questions focused on how discounts were negotiated with pharmacies, the size of their
pharmacy networks, the nature and extent of pharmacy discounts, and any associated dispensing
fees. We also asked questions about the contractual relationships between the sponsors and their
PBMs. For some questions, such as how discounts were negotiated with pharmacies, PBMs
answered on behalf of the sponsors. Our questions focused on the 2008 plan year. We
conducted these interviews between December 2008 and April 2009.

Limitations
The information in this memorandum report is from six selected sponsors and is not
generalizable to all sponsors. In addition, because of the proprietary nature of the data on
discounts, we presented general information and did not include specific data for the individual
sponsors.

Standards
This study was conducted in accordance with the Quality Standards for Inspections approved by
the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

For All Six Sponsors, PBMs Negotiated Lower Drug Prices With Pharmacies in Exchange
for the Pharmacies Being in the Sponsors’ Networks
Each of the six sponsors we reviewed relied on PBMs to negotiate drug prices with pharmacies.
These negotiations resulted in pharmacies charging lower drug prices for Part D beneficiaries
than the prices they would charge their cash-paying customers. Pharmacies generally accepted
these lower prices because participating in sponsors’ networks increased the number of
beneficiaries who used their pharmacies. Each of the 6 sponsors reported that their pharmacy
network consisted of at least 55,000 pharmacies; 1 sponsor had more than 63,000 network
pharmacies.


10 In total, the six sponsors had nine contracts with PBMs. Two of the sponsors had contracts with more than one PBM.




OEI-02-10-00120            Medicare Part D Pharmacy Discounts for 2008
Page 5 – Donald M. Berwick, M.D.


The PBMs for the six selected sponsors reported that they prepare standard contracts for various
types of pharmacies, such as retail pharmacies and long-term care pharmacies. These contracts
dictated the discounts that pharmacies had to accept in order to be part of the sponsor’s network.
Several PBMs reported that it was rare for pharmacies to participate in their networks if the
pharmacies refused to accept the discounts in these standard contracts. However, in some cases,
the PBM was willing to negotiate smaller discounts if, for example, the PBM needed a particular
pharmacy to ensure sufficient geographic coverage in the pharmacy network. 11

For All Six Sponsors, Pharmacy Discounts for Brand-Name Drugs Were Based on Average
Wholesale Prices and Varied by the Length of Supply, Pharmacy Type, and Geographic
Location
For brand-name drugs, PBMs negotiated discounts based upon a fixed percentage that is
subtracted from the drug’s average wholesale price (AWP). 12 In the contracts we reviewed, this
percentage is applied to all brand-name Part D drugs and varied by several factors, including the
length of the supply, the pharmacy type, and geographic location.

Notably, in the contracts we reviewed, different discounts were often provided to retail
pharmacies for an extended supply of drugs, such as a 3-month supply, versus a short-term
supply of drugs. 13 When this occurred, the discounts for an extended supply were greater and
generally ranged from 18 percent to 22 percent of AWP. This compares to 15 percent to
17 percent of AWP for a short-term supply of drugs. In addition, these contracts often
established higher dispensing fees for an extended supply of drugs. The average dispensing fee
for an extended supply was $2.20, compared to an average of $1.90 for a short-term supply.

In a number of contracts, the pharmacy was given a separate option to participate in the
sponsor’s network for providing extended supplies of drugs. In these cases, the discounts for
providing extended supplies were high—for example, 23 percent of AWP—and there was often
no dispensing fees provided to the pharmacy. Only 9 of the 16 pharmacies that were offered this
option chose to participate in the sponsors’ extended supply network.

Further, discounts for drugs dispensed by long-term care pharmacies were generally smaller than
those for drugs dispensed by retail pharmacies. In the contracts we reviewed, the discounts for
drugs dispensed by long-term care pharmacies generally ranged from 12 percent to 14 percent,
compared to 15 percent to 17 percent for retail pharmacies. In addition, long-term care
pharmacies generally received higher dispensing fees. For example, in one contract we

11 Sponsors must include enough pharmacies in their network to ensure that all beneficiaries have convenient access.
42 CFR § 423.120.
12 The contracts also specified that PBMs would not pay the pharmacies more than the prices that they charge their
cash-paying customers. As one contract noted, “AWP does not represent a true wholesale price, but rather is a fluctuating
benchmark.” Therefore, it is possible for the discounted prices to exceed the standard prices paid by cash-paying customers.
This provision of the contract, commonly called a usual and customary provision, ensures that the PBM pays the lesser of the
cash price or the discount based on AWP.
13 The length of supply could be either a short-term supply or an extended supply. The number of days included in a
short-term supply was generally 1 month or less. An extended supply was generally more than 1 month and up to 3 months.




OEI-02-10-00120            Medicare Part D Pharmacy Discounts for 2008
Page 6 – Donald M. Berwick, M.D.


reviewed, long-term care pharmacies received dispensing fees that were twice as much as the
dispensing fees provided to retail pharmacies.

Discounts also sometimes differed for certain geographic locations. For example, five of the six
selected sponsors reported that their discounts were less substantial in certain areas, such as
Alaska, Hawaii, the U.S. Virgin Islands, and Puerto Rico. One contract we reviewed for a
pharmacy in Alaska set the discount at 5 percent of AWP. This contract also included a
dispensing fee of almost $8. One sponsor noted that these pharmacies often have higher costs
because of their remote locations.

For All Six Sponsors, Pharmacy Discounts for Generic Drugs Were Based on Prices
Established by PBMs and Were Often Accompanied by Higher Dispensing Fees and
Benchmarks To Encourage Generic Drug Use
Pharmacy discounts for generic drugs were negotiated differently than the discounts for
brand-name drugs. For each of the six selected sponsors, the PBM developed a list of generic
drugs—known as the Maximum Allowable Cost (MAC) list—which established a maximum
amount that the sponsor will pay for each drug on this list. 14

Several PBMs noted that prices on their MAC lists change frequently, sometimes on a weekly or
even a daily basis. PBMs also noted that pharmacies were not routinely provided access to the
MAC lists. Most PBMs in our review provided their MAC lists (or a portion of their MAC list)
to pharmacies only under limited circumstances, and one PBM would not share its MAC list
under any circumstances. The pharmacies agreed to accept the prices on the MAC list without
knowing what these prices were until they submitted their claims.

Further, in the contracts we reviewed, PBMs often established larger dispensing fees for generic
drugs to encourage generic drug use. These fees were an average of 30 cents higher than the
dispensing fees for brand-name drugs. Several of the contracts also allowed for additional
payments to be made to the pharmacy if the pharmacy achieved certain levels of generic drug use
among its Part D beneficiaries.

In addition, several sponsors’ contracts included benchmarks that must be met by their PBMs.
These benchmarks—which are often called generic effective rates—required the PBM to provide
a minimum average discount among its network pharmacies for generic drugs. For example, one
contract specified that average generic drug prices not exceed the AWP less 62 percent. If the
discounts negotiated by the PBM did not meet this benchmark, the PBM had to reimburse the
sponsor the difference. These benchmarks help to encourage generic drug use among Part D
beneficiaries.




14 For generic drugs not included on the MAC list, the contracts specified that the sponsor would receive a discount based on
the drug’s AWP. The contracts also specified that the sponsor would not pay the pharmacy more than the prices they charge
their cash-paying customers.




OEI-02-10-00120             Medicare Part D Pharmacy Discounts for 2008
Page 7 – Donald M. Berwick, M.D.


For Five of the Six Sponsors, Pharmacy Discounts Were Not Always Passed on to
Beneficiaries and the Government
Five of the six selected sponsors reported using lock-in pricing for at least some drugs in 2008.
In some cases, sponsors used lock-in pricing for some plans and not for others. In other cases,
they used lock-in pricing only for certain types of drugs, such as generic drugs.

When lock-in pricing was used, beneficiaries and the Government did not always receive the full
benefit of the pharmacy discounts negotiated by PBMs. This was because the lock-in prices—
rather than the actual pharmacy discounts negotiated by PBMs—were used to calculate both the
beneficiaries’ and the Government’s share of the drug costs. Because lock-in prices tend to be
higher than the actual pharmacy discounts negotiated by PBMs, this pricing method increases the
overall cost of these drugs for beneficiaries and the Government. 15

Beginning in 2010, CMS required sponsors to provide the full benefit of pharmacy discounts to
beneficiaries and the Government. CMS issued new regulations requiring sponsors that use
lock-in pricing to include all pharmacy discounts negotiated by PBMs to calculate beneficiaries’
and the Government’s share of the drug costs. 16

CONCLUSION

Pharmacy discounts are an effective tool for lowering the costs of Part D drugs. We found that
for all six sponsors we reviewed, PBMs negotiated lower drug prices with pharmacies in
exchange for the pharmacies being in the sponsors’ networks. We also found that the pharmacy
discounts for brand-name drugs were based on average wholesale prices, whereas the discounts
for generic drugs were based on prices established by PBMs. Finally, we found that for five of
the six sponsors, pharmacy discounts were not always passed on to beneficiaries and the
Government. These results provide valuable information about how PBMs negotiate with
pharmacies for lower Part D drug prices and about the pricing methods sponsors use to pay for
these drugs. These results further highlight the importance of sponsors ensuring that they are
receiving the pharmacy discounts they negotiated and that they are passing these discounts on to
beneficiaries and the Government.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-02-10-00120 in all correspondence.




15 74 Fed. Reg. 1505, 1544 (Jan. 12, 2009).
16 42 CFR § 423.100, 74 Fed. Reg. 1544 (Jan. 12, 2009). See also 74 Fed. Reg. 1505–1506 (Jan. 12, 2009).




OEI-02-10-00120            Medicare Part D Pharmacy Discounts for 2008
